U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: ThermoLife Int’l LLC v. Andrei Iancu, Director, U.S. Patent & Trade Office,
No. 20-150
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 10,
2020. The government’s response is now due, after one extension, on October 14, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 13, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0150
THERMOLIFE INTERNATIONAL LLC
ANDREI IANCU, U.S. PATENT & TRADEMARK
OFFICE

ROBERT JARED GAJARSA
LATHAM & WATKINS LLP
555 11TH STREET, NW
WASHINGTON, DC 20004
202-637-2208
ROBERT.GAJARSA@LW.COM

